                             UNCLASSIFIED

        United States Department of State

      and the Broadcasting Board of Governors

                 Ofﬁce of Inspector General





                   Report of Inspection

 Review of the Department of

State Plan to Provide Qualiﬁed 

   Contracting Ofﬁcers and 

      Contracting Ofﬁcer

 Representatives for Oversight 

         of American

  Recovery and Reinvestment

         Act Projects 



          Report Number ISP-I-10-26, January 2010



                              IMPORTANT NOTICE
   This report is intended solely for the ofﬁcial use of the Department of State or the
   Broadcasting Board of Governors, or any agency or organization receiving a copy
   directly from the Ofﬁce of Inspector General. No secondary distribution may be made,
   in whole or in part, outside the Department of State or the Broadcasting Board of
   Governors, by them or by other agencies or organizations, without prior authorization
   by the Inspector General. Public availability of the document will be determined by
   the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of
   this report may result in criminal, civil, or administrative penalties.




                              UNCLASSIFIED

                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General
                                              UNCLASSIFIED





                                         TABLE OF CONTENTS


KEY JUDGMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

OBJECTIVE, SCOPE, AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

RESULTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

           Contracting Ofﬁcer Training and Qualiﬁcations . . . . . . . . . . . . . . . . . . . . . . . 9

           Contracting Ofﬁcer Representative Training and Qualiﬁcations . . . . . . . . . 11

           Government Technical Monitor Training and Qualiﬁcations . . . . . . . . . . . . 14

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

PRINCIPAL OFFICIALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

APPENDIX A: AMERICAN RECOVERY AND REINVESTMENT ACT-FUNDED CONTRACTS

  REVIEWED. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21





                                              UNCLASSIFIED

                                              UNCLASSIFIED





                                           KEY JUDGMENT


          Overall, the Department of State (Department) is coordinating well among all
      the ofﬁces that play a role in the American Recovery and Reinvestment Act (ARRA)
      funds including the contracting ofﬁcers (CO) and contracting ofﬁcer representa-
      tives (COR). However, the Department could improve implementation of federal
      procurement policies and immediately improve its mechanisms for tracking training
      requirements for its COs and CORs before additional ARRA contracts are awarded,
      and minimize any risk associated with the qualiﬁcations of the contract employees
      who are administering these contracts.




OIG Report No. ISP-I-10-26 - Dept’s Plan to Provide Qualiﬁed COs and CORs for Oversight of ARRA, Jan 2010   1 .


                                              UNCLASSIFIED
                                           UNCLASSIFIED





2 .   OIG Report No. ISP-I-10-26 - Dept’s Plan to Provide Qualiﬁed COs and CORs for Oversight of ARRA - January 2010


                                           UNCLASSIFIED
                                              UNCLASSIFIED





                                             BACKGROUND


           On February 17, 2009, President Obama signed the ARRA into law. The impact
      of the multipurpose bill on the Department is to spend over $600 million, primarily
      on capital projects and technology infrastructure. Funding includes $90 million for
      Diplomatic and Consular Programs, $290 million for the Capital Investment Fund,
      $220 million for the International Boundary and Water Commission (IBWC) con-
      struction, and $2 million for the Ofﬁce of Inspector General (OIG) to audit, evalu-
      ate, and monitor how the ARRA funds are spent.

          The Department is responsible for ensuring that there are sufﬁcient well-
      qualiﬁed and appropriately trained COs and (COR) to manage and provide the
      proper oversight for the ARRA contracts. The Ofﬁce of Acquisitions Management
      (A/LM/AQM) and the senior procurement executive in the Ofﬁce of the Procure-
      ment Executive (A/OPE) play a major role in ensuring that ARRA funds expended
      by the Department are spent in accordance with relevant acquisition policies and
      programs.




OIG Report No. ISP-I-10-26 - Dept’s Plan to Provide Qualiﬁed COs and CORs for Oversight of ARRA, Jan 2010   3 .


                                              UNCLASSIFIED
                                           UNCLASSIFIED





4 .   OIG Report No. ISP-I-10-26 - Dept’s Plan to Provide Qualiﬁed COs and CORs for Oversight of ARRA - January 2010


                                           UNCLASSIFIED
                                              UNCLASSIFIED




                    OBJECTIVE, SCOPE, AND METHODOLOGY


          The OIG team’s objectives were to evaluate whether the current Department
      contracting workforce is adequate to manage additional workloads associated with
      ARRA funds; verify that the COs and CORs assigned to ARRA contracts are fully
      qualiﬁed and have met training requirements; and review the use of contractors in
      inherently governmental functions. To achieve these objectives, the OIG team used
      the Ofﬁce of Management and Budget (OMB), Ofﬁce Federal Procurement Policy
      (OFPP) policy memoranda, The Federal Acquisition Certiﬁcation in Contracting (FAC-C)
      Program dated January 20, 2006, and The Federal Acquisition Certiﬁcation for Contracting
      Ofﬁcer Technical Representatives (FAC-COTR) dated November 26, 2007. The OIG team
      held interviews with ofﬁcials in A/OPE, the director and COs for ARRA contracts
      in A/LM/AQM, the CORs for ARRA contracts, government technical monitors
      (GTM) for ARRA contracts, and IBWC representatives. The OIG team also met
      with the Bureau of Administration/Bureau of Information Resource Management
      executive ofﬁce budget director and the Ofﬁce of Management Policy, Rightsizing,
      and Innovation director to assess the coordination between the contracting work-
      force and these ofﬁces. The OIG team also met with Karen A. Pica, a management
      analyst in OMB/OFPP, and held a telephone conference with Cecilia Davis, acting
      director of the Federal Acquisition Institute (FAI).

          The OIG team reviewed the 11 ARRA-funded contracts that A/LM/AQM
      awarded before July 13, 2009. The OIG team veriﬁed that no grants had been issued
      using ARRA funds. The General Services Administration (GSA) is tasked as the
      contracting ofﬁce for the design-build construction of most of the Department’s
      domestic real property projects. As of July 30, 2009, the real property construc-
      tion contracts have not been awarded. The inspection team’s review included a
      review of CO qualiﬁcations including warrants, training requirements, and records
      of continuous learning activities. For the CORs and GTMs, the OIG team reviewed
      whether their delegation letters and training certiﬁcates were part of the contract
      ﬁles to support their qualiﬁcations. For IBWC, the inspection team requested the
      same information for the CO and COR dealing with ARRA contracts. Appendix A
      includes a list of the ARRA-funded contracts that OIG reviewed.

         This review took place in Washington, DC between July 9 and August 10,
      2009. (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
      (b) (6)(b) (6)(b) (6)(b) (6) conducted the review, in accordance with the



OIG Report No. ISP-I-10-26 - Dept’s Plan to Provide Qualiﬁed COs and CORs for Oversight of ARRA, Jan 2010   5 .


                                              UNCLASSIFIED
                                           UNCLASSIFIED



          President’s Council on Integrity and Efﬁciency, Quality Standards for Inspections. The
          OIG team discussed its conclusions and observations with appropriate Department
          management ofﬁcials.




6 .   OIG Report No. ISP-I-10-26 - Dept’s Plan to Provide Qualiﬁed COs and CORs for Oversight of ARRA - January 2010


                                           UNCLASSIFIED
                                              UNCLASSIFIED




                                                  RESULTS




      CONTRACTING OFFICER TRAINING AND QUALIFICATIONS
          The inspection team reviewed the qualiﬁcations of the six COs responsible for
      the 11 ARRA contracts. The workload of the Department’s COs has slightly in-
      creased as a result of awarding and administering ARRA contracts. Interviews with
      different ofﬁces revealed that ARRA contracts have priority in terms of the atten-
      tion of the COs assigned to them. The burden of additional workloads from ARRA
      has not impacted operations. However, the inspection team had concerns that the
      contract administration of other contracts and the proper oversight of ARRA con-
      tracts may be affected as more contracts are awarded. Accordingly, the OIG team
      counseled the Department to monitor the situation. The IBWC was authorized to
      transfer $2 million to salaries and expenses for additional personnel to facilitate ad-
      ministration and oversight of ARRA contracts. The IBWC has accomplished this by
      hiring two term COs and four engineers.

      Use of Contractors While Avoiding Inherently
      Governmental Functions

          Department of State COs are supported in contract administration by contractor
      personnel, but this may not be adequate. The OIG team veriﬁed that proper controls
      are in place to ensure that contractors do not perform any inherently governmental
      functions. However, the inspection team was not able to evaluate which mechanisms
      or controls are in place to ensure that the contractors do not receive unfair advan-
      tages from the knowledge that they obtain through their work.

          The COs managing these ARRA contracts are very experienced GS-1102 em-
      ployees with 15 or more years of experience in contracting. Five of them are grade
      GS-14 and one is grade GS-15. Four of the six COs have a FAC-C Level II warrant
      of $5,500,000 for commercial items and $500,000 for noncommercial items. The
      other two COs have a FAC-C Level III warrant, which gives them the authority to
      sign contracts, without regard to limit, on behalf of the U.S. Government. The
      IBWC CO has a FAC-C level III warrant.




OIG Report No. ISP-I-10-26 - Dept’s Plan to Provide Qualiﬁed COs and CORs for Oversight of ARRA, Jan 2010   7 .


                                              UNCLASSIFIED
                                           UNCLASSIFIED




              In reviewing CO qualiﬁcations, the team discovered that some COs have not met
          their 80 continuous learning points (CLP) of skills-currency training within the past
          two years.1 Three of the COs have not taken sufﬁcient training courses in the past
          two years to meet the 80 CLP training requirement stated in the OMB’s The Federal
          Acquisition Certiﬁcation in Contracting (FAC-C) Program policy memorandum (dated
          January 20, 2006). As of July 30, 2009, these COs were not enrolled in any training
          courses. The Department’s senior procurement executive gave one CO 80 points
          for creditable activities. The OIG team veriﬁed that these activities met the training
          objectives of the FAC-C program. The CO in IBWC has maintained 80 CLPs.

              The training records kept by the COs are different from the training records
          maintained by the program specialist in A/LM/AQM who keeps track of all the
          training. A/LM/AQM does not have a system for identifying the different FAC-C
          training requirements for each CO. This program specialist enrolls the COs in
          courses and notiﬁes them when classes are available; however, each CO must de-
          termine which training courses he/she needs to maintain their FAC-C certiﬁcation.
          The COs are also responsible for providing to the program specialist a copy of the
          certiﬁcate of training upon course completion. The COs’ supervisors, and in some
          cases the COs themselves, do not take an active role in verifying or keeping accurate
          inventory of the COs’ compliance with the 80 CLP requirement. The OMB January
          2006 policy memorandum requires the Acquisition Career Management Informa-
          tion System (ACMIS) to be the ofﬁcial system of records for the FAC-C program
          for all civilian agencies. The memo also stated that agencies and individuals must
          maintain supplemental records for quality assurance — e.g., copies of course certiﬁ-
          cates and creditable activities. The COs for ARRA contracts have not used ACMIS
          except for one who used it approximately six months ago. The CO in IBWC has
          not used ACMIS. The OIG team was told that ACMIS is not user-friendly and has
          many “computer bugs.” The Department, which has a representative in the AC-
          MIS working group, has shared those concerns with the individuals responsible for
          the ACMIS program at FAI. FAI recognizes that there are challenges with ACMIS,
          and it is working towards addressing those challenges with the working group. FAI
          expects to have the outstanding ACMIS issues resolved before the end of 2009, and
          has expressed the hope that, once those issues are addressed, COs from the federal
          agencies will use the ACMIS system regularly.

              The inspection team found that the conditions described above occurred for var-
          ious reasons. A key reason is that, during mid-year performance reviews, the COs’
          supervisors only informally encouraged training. COs are not required to prepare or

          1 OMB in FAC-C and FAC-COTR speciﬁes the conversion formulas for converting various
          activities, including training, professional activities, or qualifying education into continuous learn-
          ing points.

8 .   OIG Report No. ISP-I-10-26 - Dept’s Plan to Provide Qualiﬁed COs and CORs for Oversight of ARRA - January 2010


                                           UNCLASSIFIED
                                              UNCLASSIFIED




      follow an individual development plan. Another reason that some COs have not met
      their training requirements is that they feel they are experienced enough, and they are
      concerned that the week or two spent away from work on training might seriously
      impact their workload.

           The purpose of training requirements is to ensure that COs’ skills are up-to-date
      with new contracting regulations and best practices. Given the technology available
      today and the ﬂexibility of online classes, there is no reason COs cannot meet their
      continuous learning requirements every two years. The Department could also do a
      better job of monitoring these training requirements otherwise it cannot ensure that
      all COs maintain professional proﬁciency and remain qualiﬁed.



          Recommendation 1: The Ofﬁce of Acquisitions Management, in coordina-
          tion with the Ofﬁce of the Procurement Executive, should establish and imple-
          ment a tracking system to document and monitor the training requirements
          stated in the Federal Acquisition Certiﬁcation in Contracting policy memoran-
          dum, including the requirement that contracting ofﬁcers must have 80 continu-
          ous learning points every two years. (Action: A/LM/AQM, in coordination
          with A/OPE)




      CONTRACTING OFFICER REPRESENTATIVE TRAINING AND
      QUALIFICATIONS
          Four CORs have been assigned to seven of the 11 ARRA contracts. The other
      four contracts are delivery orders and do not require the appointment of a COR.
      The OIG team veriﬁed that all CORs on these ARRA contracts took the initial 40
      CLPs of training for certiﬁcation before they were appointed as CORs. Delega-
      tion letters are included in the contract ﬁles. However, the CORs training certiﬁ-
      cates were not included in two contract ﬁles. The OIG team was told that, because
      these ARRA contracts were task orders or modiﬁcations from the original contracts
      awarded a few years earlier, the certiﬁcates are in the original contract ﬁles.

          Two of the four CORs took their initial COR certiﬁcation training in 2007, so
      the training was still current. However, there was a certiﬁcation letter for the third
      COR without any apparent review of the COR’s training qualiﬁcations; the initial
      training for certiﬁcation was conducted in 2003, so it was no longer current. The
      fourth COR’s initial training for certiﬁcation took place in 2006, so it too was no lon-


OIG Report No. ISP-I-10-26 - Dept’s Plan to Provide Qualiﬁed COs and CORs for Oversight of ARRA, Jan 2010   9 .


                                              UNCLASSIFIED
                                            UNCLASSIFIED




           ger current. The team concluded that, in both cases, the reason for the out-of-date
           training was that the Department’s senior procurement executive was not implement-
           ing the more rigorous standard. The Department advised the OIG team that this
           was because it chose to initially apply the more rigorous standard only to its COs.
           Therefore, CORs and their supervisors were not aware that the training standard had
           changed.

                The IBWC CORs on ARRA contracts also took their initial 40 CLPs of COR
           training for certiﬁcation. The Recovery Accountability and Transparency Board
           uses OMB’s The Federal Acquisition Certiﬁcation for Contracting Ofﬁcer Technical Representa-
           tives (COTRs) memorandum dated November 26, 2007, as criteria in reviewing ARRA
           funds. This policy memorandum states that COTRs (known as CORs in the Depart-
           ment) must have a minimum of 40 CLPs for initial certiﬁcation, and must maintain
           their skills currency through continuous learning every two years. The CLPs can be
           obtained from several sources, including online courses, professional activities, and
           qualifying education. The Department has not implemented this requirement; it still
           follows the Department of State Acquisition Regulations 642.270 (d) and 14 FAH-2
           H-143.1(c), which require that CORs take a refresher course every ﬁve years. In
           applying the OMB November 2007 policy memorandum as criteria, the OIG team
           found that some CORs are not in compliance with the government-wide training
           requirement. The OIG team was told that the change had not been implemented be-
           cause there were no additional resources to implement this program, and compliance
           with FAC-C has been a higher priority.

               The OIG team concluded that, although A/OPE resources are limited and the
           FAC-C program is indeed important, this does not relieve the Department of the
           responsibility to implement this policy requirement. The chief acquisition ofﬁcer in
           each federal agency is responsible for developing workforce policies that apply the
           FAC-COTR requirements.


               Recommendation 2: The Ofﬁce of the Procurement Executive should
               implement the Ofﬁce of Management and Budget’s The Federal Acquisition Cer-
               tiﬁcation for Contracting Ofﬁcer Technical Representatives policy memorandum and
               make changes to the Department of State Acquisition Regulations and Foreign Affairs
               Handbook to reﬂect the new requirement that contracting ofﬁcer representatives
               must have 40 continuous learning points every two years, to maintain their skills
               currency and certiﬁcation. (Action: A/OPE)




10 .   OIG Report No. ISP-I-10-26 - Dept’s Plan to Provide Qualiﬁed COs and CORs for Oversight of ARRA - January 2010


                                            UNCLASSIFIED
                                              UNCLASSIFIED



           The OIG team asked for information about the CORs for these ARRA contracts
      and found that there is no database to track the CORs’ initial 40 CLPs of training
      for certiﬁcation or the CLPs that are required thereafter to maintain skills currency
      and certiﬁcation. The COs informed the team that they rely on the CORs to let them
      know if they have taken COR training. Although the COs assured the team that
      no one is designated as a COR without showing proof that he or she has taken the
      initial training, the OIG team found that this was not the case for at least one ARRA
      COR. The lack of a central training database could result in a major risk for the
      Department, since it cannot verify that all CORs maintain their technical competen-
      cies during the life of a contract. The OMB November 2007 policy memorandum
      states that an “Acquisition Career Manager or designee, shall monitor the continuous
      learning requirements for employees holding FAC-COTRs to ensure they meet this
      requirement.” The memorandum also directs COTRs to use ACMIS. COTRs must
      update their existing ACMIS records in a timely manner and should keep them cur-
      rent, so the records accurately reﬂect the COR/COTRs’ CLP acquisition and certi-
      ﬁcation status. None of the ARRA CORs, including the one from IBWC, has used
      ACMIS to record their training information, but IBWC maintains excellent training
      records on its CORs.

           The OIG team anecdotally learned that the Bureau of Overseas Buildings Op-
      erations and the Bureau of International Narcotics and Law Enforcement Affairs
      maintain good records of their CORs’ training. This assertion seemed to be based on
      the two bureaus’ expertise in keeping training records, due to their heavier involve-
      ment in contracts and contract oversight, as compared to other bureaus. For ex-
      ample, The Bureau of Overseas Building Operations has a training ofﬁcer, but each
      division director is responsible for maintaining accurate training records for CORs
      in that division. Some divisions in the bureau have much greater contract manage-
      ment responsibilities than others. In the Bureau of International Narcotics and Law
      Enforcement Affairs, the management systems division chief of resource manage-
      ment has taken a proactive approach. Under his direction, his bureau has established
      a COR checklist, and his staff periodically meets with CORs in the bureau to review
      the checklist. He has also established the bureau’s training program for CORs, and
      it includes an exemplary set of COR training materials. The bureau’s program and
      policy guide also directs CORs to make necessary arrangements with the Foreign
      Service Institute, in coordination with the bureau training ofﬁcer, for additional train-
      ing. The OIG team learned that the bureau’s chief of resource management was not
      familiar with ACMIS or the FAI; CORs in the bureau do not input their training into
      ACMIS; and the chief of resource management was not aware of the more stringent
      government-wide standard of 40 COR CLPs every two years, rather than the ﬁve-
      year standard that the Department is currently using.



OIG Report No. ISP-I-10-26 - Dept’s Plan to Provide Qualiﬁed COs and CORs for Oversight of ARRA, Jan 2010   11 .


                                              UNCLASSIFIED
                                            UNCLASSIFIED




               CORs for ARRA contracts are doing their part in tracking their training informa-
           tion, but they too were unaware of the tightened standard. The Department could
           be more proactive and take advantage of technology to develop an electronic system
           that not only keeps training information, but also alerts the COR and the COR’s
           supervisor when a training opportunity is available, and when it is time to take a re-
           fresher training course. Additionally, the Department could delegate to the bureaus
           the authority to keep track of COR training, and could give A/OPE responsibility
           for conducting audit reviews from time to time, to verify that CORs are up-to-date
           with their training requirements.


               Recommendation 3: The Ofﬁce of the Procurement Executive should de-
               velop and implement an electronic tracking database and procedures to record
               and verify that contracting ofﬁcer representatives’ qualiﬁcations and continuous
               learning training requirements meet those of the Ofﬁce of Management and
               Budget’s The Federal Acquisition Certiﬁcation for Contracting Ofﬁcer Technical Represen-
               tative policy memorandum (Action: A/OPE)




           GOVERNMENT TECHNICAL MONITOR TRAINING AND
           QUALIFICATIONS
               Four ARRA contracts were delivery orders. Two of these contracts have a GTM
           appointed to ensure that the goods are received in accordance to the terms of the
           contract. Although OMB has not issued any guidance for GTMs, the Department
           has the same training requirements for GTMs in the Department of State Acquisi-
           tion Regulations 642.271(b) and in 14 FAH-2 H-145 (b) that apply to CORs. The
           OIG team found that GTMs have either taken the 40 initial points of COR train-
           ing or have attended the one-day COR training session provided by A/OPE. COR
           training information was not included in the contract ﬁles to support their qualiﬁca-
           tions.




12 .   OIG Report No. ISP-I-10-26 - Dept’s Plan to Provide Qualiﬁed COs and CORs for Oversight of ARRA - January 2010


                                            UNCLASSIFIED
                                              UNCLASSIFIED





                                       RECOMMENDATIONS


      Recommendation 1: The Ofﬁce of Acquisitions Management, in coordination
        with the Ofﬁce of the Procurement Executive, should establish and implement a
        tracking system to document and monitor the training requirements stated in the
        Federal Acquisition Certiﬁcation in Contracting policy memorandum, including
        the requirement that contracting ofﬁcers must have 80 continuous learning points
        every two years. (Action: A/LM/AQM, in coordination with A/OPE)

      Recommendation 2: The Ofﬁce of the Procurement Executive should implement
        the Ofﬁce of Management and Budget’s The Federal Acquisition Certiﬁcation for Con-
        tracting Ofﬁcer Technical Representatives policy memorandum and make changes to the
        Department of State Acquisition Regulations and Foreign Affairs Handbook to reﬂect the
        new requirement that contracting ofﬁcer representatives must have 40 continuous
        learning points every two years, to maintain their skills currency and certiﬁcation.
        (Action: A/OPE)

      Recommendation 3: The Ofﬁce of the Procurement Executive should develop
        and implement an electronic tracking database and procedures to record and
        verify that contracting ofﬁcer representatives’ qualiﬁcations and continuous learn-
        ing training requirements meet those of the Ofﬁce of Management and Budget’s
        The Federal Acquisition Certiﬁcation for Contracting Ofﬁcer Technical Representative policy
        memorandum. (Action: A/OPE)




OIG Report No. ISP-I-10-26 - Dept’s Plan to Provide Qualiﬁed COs and CORs for Oversight of ARRA, Jan 2010   13 .


                                              UNCLASSIFIED
                                            UNCLASSIFIED





14 .   OIG Report No. ISP-I-10-26 - Dept’s Plan to Provide Qualiﬁed COs and CORs for Oversight of ARRA - January 2010


                                            UNCLASSIFIED
                                              UNCLASSIFIED




                                      PRINCIPAL OFFICIALS


                                                                  Name                      Arrival Date
      Procurement Executive                                   Corey Rindner                  August 2003
      Director, Acquisition                                   Cathy Read                  September 2002
        Management




OIG Report No. ISP-I-10-26 - Dept’s Plan to Provide Qualiﬁed COs and CORs for Oversight of ARRA, Jan 2010   15 .


                                              UNCLASSIFIED
                                            UNCLASSIFIED





16 .   OIG Report No. ISP-I-10-26 - Dept’s Plan to Provide Qualiﬁed COs and CORs for Oversight of ARRA - January 2010


                                            UNCLASSIFIED
                                              UNCLASSIFIED





                                           ABBREVIATIONS


      ACMIS                          Acquisition Career Management Information System
      A/LM/AQM                       Ofﬁce of Acquisitions Management
      ARRA                           American Recovery and Reinvestment Act
      A/OPE                          Ofﬁce of the Procurement Executive
      CO                             Contracting ofﬁcer
      CLP                            Continuous learning point
      COR                            Contracting ofﬁcer’s representative
      FAC-C                          Federal Acquisition Certiﬁcation in Contracting
      FAC-COTR                       Federal Acquisition Certiﬁcation for Contracting
                                     Ofﬁcer Technical Representatives
      FAI                            Federal Acquisition Institute
      GAO                            U.S. Government Accountability Ofﬁce
      GSA                            General Services Administration
      GTM                            Government Technical Monitor
      IBWC                           International Boundary and Water Commission
      OFPP                           Ofﬁce Federal Procurement Policy
      OIG                            Ofﬁce of Inspector General
      OMB                            Ofﬁce of Management and Budget




OIG Report No. ISP-I-10-26 - Dept’s Plan to Provide Qualiﬁed COs and CORs for Oversight of ARRA, Jan 2010   17 .


                                              UNCLASSIFIED
                                            UNCLASSIFIED





18 .   OIG Report No. ISP-I-10-26 - Dept’s Plan to Provide Qualiﬁed COs and CORs for Oversight of ARRA - January 2010


                                            UNCLASSIFIED
                                              UNCLASSIFIED



              APPENDIX A: AMERICAN RECOVERY AND
         REINVESTMENT ACT-FUNDED CONTRACTS REVIEWED



      The table below summarizes the 11 contracts that the inspection team reviewed.
      The list was provided by A/LM/AQM on July 13, 2009.

                                          Award
       Contract Number                    Date           Description                                        Amount
        SAQMMA09F1359                     5/1/2009 IT equipment: Desktops and monitors                      $ 4,401,329.51
        SAQMMA07F2149-Mod 2               5/13/2009 Tier 2 Technical Support                                $ 507,648.00
                                                    Capital Planning Investment Control
        SAQMMA09L0369-Mod 5               5/22/2009 Project                                                 $   947,817.48
                                                         Technical Support for the Systems
        SAQMMA07F1066-Mod 12 6/1/2009                    Integrity Division                                 $   947,817.48
                                                    A/E services for planning, design,
                                                    commissioning, and other support
        SAQMMA09F1591                     6/2/2009 services for the data center              $ 3,114,215.00
        SAAQM08F3448-Mod 6                6/5/2009 Cybersecurity Training Program            $ 483,220.55
        SAQMMA09M1175                     6/19/2009 Enterprise License for Biometric Readers $ 131,000.00
                                                    Replace or Enhance ONE / Mobile
        SAQMMA09F1953                     6/24/2009 Computing capabilities                                  $   990,000.00
        SAQMMA09F1964                     7/8/2009 Reconstruction Appliances                                $    74,500.00
                                                    Agilent Equipment, Generator and
        SAQMMA09F1965                     7/8/2009 Training                                                 $    79,422.93
        SAQMMA09C0175                     7/15/2009 Biometric Readers                                       $ 5,875,000.00




OIG Report No. ISP-I-10-26 - Dept’s Plan to Provide Qualiﬁed COs and CORs for Oversight of ARRA, Jan 2010              19 .


                                              UNCLASSIFIED
UNCLASSIFIED





UNCLASSIFIED

                UNCLASSIFIED





FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs

         and resources hurts everyone. 


        Call the Office of Inspector General 

                     HOTLINE 

                    202-647-3320

                 or 1-800-409-9926 

          or e-mail oighotline@state.gov 

       to report illegal or wasteful activities.

               You may also write to
            Office of Inspector General
             U.S. Department of State
               Post Office Box 9778
               Arlington, VA 22219
            Please visit our Web site at:
                http://oig.state.gov

         Cables to the Inspector General
        should be slugged “OIG Channel”
            to ensure confidentiality.




                UNCLASSIFIED

UNCLASSIFIED





UNCLASSIFIED

